       DOD PAYROLL WITHHOLDING DATA FOR FY 1999


Report No. D-2000-156                          June 29, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CSRS                  Civil Service Retirement System
DCPS                  Defense Civilian Payroll System
DFAS                  Defense Finance and Accounting Service
FEGLI                 Federal Employees Group Life Insurance
FERS                  Federal Employees Retirement System
OPM                   Office of Personnel Management
RITS                  Retirement Insurance and Transfer System
                        Office of the Inspector General, DoD
Report No. D-2000-156                                                    June 29, 2000
  (Project No. D1999FH-0072.001)
  (formerly Project No. 9FH-2014.01)

                 DoD Payroll Withholding Data for FY 1999

                                 Executive Summary

Introduction. We performed this audit in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994, which requires
DoD and other Government agencies to prepare consolidated financial statements. This
audit supports our audit of the FY 1999 DoD Agency-wide financial statements. Office
of Management and Budget Bulletin No. 98-08, August 24, 1998, requires us to review
the retirement, health, and life insurance withholdings and agency contributions during
the course of conducting audits and specifies the procedures to apply. The DoD payroll
offices remitted more than $2 billion to the Office of Personnel Management for the
year in retirement and health and life insurance withholdings and agency contributions
for more than 800,000 DoD civilian employees with a total annual payroll of
$37.6 billion.

Objectives. Our objective was to determine whether the retirement, health, and life
insurance withholdings and employee data that DoD submitted were accurate and
supported. We also assessed management controls and compliance with laws,
regulations, and procedures relative to payroll withholding data that DoD submitted.

Results. The Defense Finance and Accounting Service and DoD personnel offices did
not have adequate controls to support the accuracy of the payroll amounts withheld and
remitted to the Office of Personnel Management.

        • DoD offices were not retaining all personnel files and documents, nor did
          they have a system to ensure completion of personnel documents. Our tests
          of the personnel records of 279 employees identified 24 employees
          (8.60 percent) with errors in their gross pay or payroll withholding (see
          Appendix B). Because some employee files sampled had more than one
          error, the errors numbered 35 for those 24 individuals. We could not
          statistically project the results to the 800,000 DoD civilians. As a result,
          DoD personnel documentation did not always support amounts that DFAS
          paid and withheld (finding A).

        • The Defense Finance and Accounting Service did not promptly resolve edit
          check discrepancies. Payroll personnel did not reconcile three payroll files
          that failed edit checks. As a result, OPM did not have complete assurance
           of the accuracy of the DoD payroll withholding data and the reliability,
           accuracy, and verifiability of the amounts transferred (finding B).

Recommendations in this report, if implemented, will improve Military Department
civilian personnel offices’ management controls and support for amounts paid and
withheld by the Defense Finance and Accounting Service. See Appendix A for details
of the management control program.

Summary of Recommendations. We recommend establishment of procedures that
ensure timely and accurate payroll election records and prompt transmission of
personnel payroll data; correction of the errors discussed in this report; establishing a
review system for employee payroll elections; and establishing performance measures
for assessing the accuracy of payroll withholding data. We recommend that the
Director, Defense Finance and Accounting Service, develop software capable of
correctly extracting electronic files that support the withholding amounts reported and
implement management control procedures that ensure clear identification and
communication of responsibilities.

Management Comments. The Office of the Assistant Secretary of the Army
(Manpower and Reserve Affairs) nonconcurred with establishing controls for accurate
payroll election records and prompt data transmission, concurred with correcting the
reported errors, and nonconcurred with establishing a review system for employee
payroll elections, and did commit to establishing performance metrics. The Office of
the Assistant Secretary of the Navy (Manpower and Reserve Affairs) concurred with
establishing controls for accurate payroll election records and prompt data transmission,
concurred with correcting the reported errors, and concurred with establishing a review
system for employee payroll elections. The Director of Finance, Defense Finance and
Accounting Service, concurred that his office would develop software capable of
extracting details and also clearly identify and communicate transferred responsibilities
to affected personnel. The Air Force did not provide comments. A discussion of
management comments is in the Findings section of the report, and the complete text is
in the Management Comments section.

Audit Response. The majority of comments from the Army were not responsive. The
majority of comments from the Navy lacked detail on corrective actions. We are
concerned that 8.6 percent of the payroll records examined were in error and other than
fixing the errors identified, the comments were not specific on how the Services
planned to identify similar errors in other pay records and establish metrics to measure
the accuracy of payroll withholding for DoD civilians. The comments from the
Director, Defense Finance and Accounting Service, were responsive. We considered all
of their comments and included their comments in this report. We request that the
Army, the Navy, and the Air Force provide additional comments on the
recommendations by August 28, 2000.




                                             ii
Table of Contents

Executive Summary

Introduction
     Background                                                     1
     Objectives                                                     1

Findings
     A. DoD Payroll Personnel Records                               2
     B. Accuracy and Reliability of DoD Payroll Withholding Data   12

Appendixes
     A. Audit Process
         Scope                                                     16
         Methodology                                               17
         Management Control Program                                17
         Summary of Prior Coverage                                 18
     B. Summary of Errors                                          19
     C. Report Distribution                                        20

Management Comments
     Department of the Army                                        23
     Department of the Navy                                        27
     Defense Civilian Personnel Management Service                 28
     Defense Finance and Accounting Service                        29
Background
     Reporting Requirements. Public Law 101-576, the “Chief Financial Officers
     Act of 1990,” November 15, 1990, requires Federal organizations to prepare
     annual audited financial statements. The Chief Financial Officers Act also
     requires the Inspectors General to audit all financial statements prepared under
     its guidelines. The Chief Financial Officers Act, as amended by Public
     Law 103-356, the “Federal Financial Management Act of 1994,” October 13,
     1994, requires DoD and other Government agencies to prepare agency-wide
     financial statements since FY 1996.

     Audits of Federal Financial Statements. Office of Management and Budget
     Bulletin No. 98-08, “Audits of Federal Financial Statements,” August 24, 1998,
     establishes responsibilities and standards for audits of Federal financial
     statements. Appendix H of the Bulletin outlines agreed-upon procedures to be
     applied separately for each agency payroll office that services 30,000 or more
     employees per year. The period subject to the agreed-upon procedures is for the
     12 months ending September 30 of each year. On December 6, 1999, we
     submitted a separate memorandum on the application of the agreed-upon
     procedures to the Inspector General of the Office of Personnel Management
     (OPM).

     Payroll Responsibilities. The Defense Finance and Accounting Service
     (DFAS) provides payroll services to DoD, including calculation of gross pay,
     withholding, and reporting the amounts withheld to OPM. The DFAS reports
     more than $2 billion in withholding to OPM annually for more than 800,000
     DoD civilian employees included in the total annual civilian payroll of about
     $37.6 billion. DoD civilian personnel offices and regional centers are
     responsible for retaining documentation supporting all DoD civilian personnel
     withholding elections and gross pay amounts.



Objectives
     The overall audit objective was to determine whether the retirement, health
     benefits, and life insurance withholdings and employee data that DoD submitted
     to OPM were accurate and supported. Appendix H of Office of Management
     and Budget Bulletin No. 98-08 specifies the procedures that we applied to meet
     the objective. We also assessed management controls and compliance with
     laws, regulations, and procedures relative to payroll withholding data that DoD
     submitted. Appendix A includes a discussion of scope, methodology, the
     management control program, and prior audit coverage.




                                         1
                     A. DoD Payroll Personnel Records
                     Of the 279 personnel records sampled at DoD civilian personnel offices,
                     24 personnel records, or 8.60 percent*, had one or more deficiencies in
                     their gross pay or withholding for retirement, health benefits, and life
                     insurance. DoD employee personnel records had errors because DoD
                     personnel offices did not have an effective system to review and correct
                     civilian employee personnel documents and civilian payroll deductions
                     on a timely basis. As a result, DoD personnel documentation did not
                     support amounts that DFAS paid and withheld.



Documentation
            Civilian Personnel Office Records. Documentation in civilian personnel office
            records supporting the amounts deducted for retirement, health benefits, and life
            insurance provides assurance that DoD civilian employees receive the benefits
            that they have elected and that the amounts withheld as payment for the benefits
            are authorized and accurate. In the past, DoD civilian employees made the
            elections almost exclusively on paper forms, and DoD personnel offices had to
            retain the forms as evidence of the employees’ elections for particular benefits
            and authorization for pay and withholding. By December 31, 2000, DoD
            civilian employees should be able to make the elections electronically, and DoD
            organizations plan to retain electronic records to document those elections. For
            the purposes of our audit, we defined an error as an inconsistency or
            discrepancy between personnel file documentation and payroll withholding data.

            Requirements for Audit Trails. DoD Regulation 7000.14-R, “Financial
            Management Regulation,” January 1995, states that accounting systems must
            have audit trails that allow transactions to be traced from initiation through
            processing to final reports. A fundamental requirement of a good audit trail is
            that it adequately supports the transactions and payroll deductions forwarded to
            OPM for employee benefits and the reverse from final reports to the initiating
            transaction document. The audit trail provides management with assurance that
            support for any transaction can be easily identified for resolution or analysis.
            All transactions and deductions should be supported with pertinent documents
            and source records.




*
    Percentages in this report are based on the sample only, and do not generalize to the universe.



                                                       2
Supporting Documentation
    Personnel offices and regional centers lacked adequate supporting
    documentation for payroll deductions. Out of our sample of 279 employee
    personnel records, 24 records (8.60 percent) had one or more deficiencies in
    their gross pay or withholding. Of the 279 records sampled, 16 records
    (5.73 percent) had one or more deficiencies because of inadequate
    documentation, and another 8 items (2.87 percent) had calculations inconsistent
    with the document support because personnel offices did not promptly transmit
    personnel payroll data to DFAS. Because some samples had more than one
    error, the errors totaled 35. The lack of supporting documentation caused
    errors in the payroll categories of gross pay, retirement, Thrift Savings Plan
    (Thrift), health benefits, and life insurance withholding amounts (FEGLI). The
    following figure identifies the number of errors by payroll deduction.


                         40
                         35
                         30
               Number of 25
                         20
                Errors 15
                         10
                          5
                          0                                          Gross Pay


                                                                                 Errors
                              Health




                                                    Thrift
                                       Retirement




                                                             FEGLI




                                                                                 Total



                                        Payroll Deductions

     Accuracy of Withholding Amounts




Accuracy of Withholding Amounts
             Gross Pay. Eight payroll data files traced to personnel file
    documentation for amounts paid resulted in five instances in which the gross pay
    was not supported. The five instances in which the gross pay was not supported
    included one missing file ($554 in one pay period), two missing documents
    ($1,213 and $1,538 per pay period), and two calculation errors ($3 overpaid and
    $48 underpaid per pay period). For example, one civilian employee was
    underpaid by $48 per pay period in gross pay for four pay periods because his
    personnel office did not report his changed rate of pay for more than 2 months.
    The effect of the errors could cause overpayments that could lead to a future
    liability for civilian personnel or to a civilian employee not receiving the correct
    amount of net pay.

            Retirement. Our sample identified that 120 of 279 participants were in
    the Civil Service Retirement System (CSRS), 148 participants were in the
    Federal Employees Retirement System (FERS), and 11 participants were not
    eligible or not in a plan for other reasons. Specifically, one retirement


                                                       3
withholding (contribution) error for CSRS was caused by a calculation error
resulting from a failure to change the pay rate ($5 underwithheld per pay
period). We also identified eight Thrift Savings Plan errors because of two
incomplete elections ($104 and $72 per pay period overwithheld), two missing
forms ($112 and $183 per pay period overwithheld), two outdated forms ($100
and $74 per pay period overwithheld), one calculation error ($3 per pay period
underwithheld), and one missing personnel file. Because Thrift Savings Plan
election forms were not consistently completed and on file, DoD was not
assured of the accuracy of amounts withheld for DoD civilian employees and
that the elections of DoD civilian employees were actually reflected in their
payroll and their thrift savings plans. Because of potential errors that may
repeat over time, and considering compound interest that could be earned, a
single error could multiply to a significant amount over time.

        Health Benefits. We compared the amounts withheld in the payroll data
files with the amounts that should have been withheld according to the personnel
file documentation. We identified 10 health benefits withholding errors. The
errors were caused by one missing file, four missing documents ($11
underwithheld and $55, $62, and $34 overwithheld per pay period),
two withholdings inconsistent with documented elections ($11 and $29
overwithheld per pay period), and three health plan codes on payroll data files
inconsistent with documented elections ($67 and $6 overwithheld and $10
underwithheld per pay period). For example, because DoD withheld pay
inconsistent with documented health elections, one employee had $29 withheld
for health insurance even though he canceled his enrollment in the Federal
Employees Health Benefits Program on December 1, 1997. Health benefits
selected by employees must be accurate to ensure that withholdings are
authorized.

        Life Insurance. We recalculated the amount that should have been
withheld for life insurance coverage based on personnel file documentation and
the rates for life insurance stated in the Federal Employees Group Life
Insurance handbook (RI76-21). Our analysis reflected 11 life insurance
withholding errors. The withholding errors were caused by one missing file,
one outdated form ($4 underwithheld per pay period), two withholdings
inconsistent with documented elections ($4 and $8 overwithheld per pay period),
and seven calculation errors (ranging from $0.66 underwithheld to $44
overwithheld per pay period). For example, one employee waived life
insurance coverage on April 13, 1998, but $4.13 was withheld from his pay for
life insurance. Because life insurance election forms were not consistently
entered into the personnel and payroll system, DoD was not assured of the
accuracy of amounts withheld for DoD civilian employees and that the elections
of DoD civilian employees were actually reflected in their payroll. Employees
could choose a high rate of life insurance coverage but would not have adequate
amounts of withholding taken out. The inadequate withholding could create a
situation in which the employee could be billed for the coverage at a later date
for an amount significantly greater than the biweekly withholding.




                                   4
Measures of Performance and Validation
    Personnel File Documentation. DoD needs to improve the accuracy of its
    payroll withholding data because personnel file documents supporting payroll
    deductions were missing or not current. We identified errors in personnel file
    documentary support and resulting calculations in gross pay, retirement
    including the Thrift Savings Plan, health benefits, and life insurance. We did
    not identify any measures of acceptable performance, which must be in place to
    have a system of review and feedback on performance of duties essential to
    operations and report accuracy. We also identified errors in payroll reports as
    discussed in finding B. The Military Departments did not have adequate
    measures for assessing the support for gross pay and payroll withholding from
    personnel file records and accounting records. However, no performance
    measures or feedback mechanisms were in place to alert management to those
    problems.

    Validating Payroll Withholding. Personnel documentation supporting payroll
    deductions did not agree or was missing when compared with the DFAS payroll
    withholding, and we could not identify whether personnel had validated the
    supporting documentation. Validating the accuracy of payroll withholding is
    important so that organizations and personnel responsible for calculating,
    withholding, and reporting DoD payroll can receive feedback indicating their
    success or need for improvement. The errors that we identified in personnel file
    documentary support and resulting calculations of gross pay; retirement,
    including the Thrift Savings Plan; health benefits; and life insurance could have
    been detected and corrected before our audit if the Military Departments had
    established a program to validate payroll withholding accuracy and support and
    provide feedback to organizations and personnel responsible for retaining
    records of withholding elections and personnel actions.



Conclusion
    Deficiencies existed in the employee records documenting gross pay and
    withholding for retirement, health benefits, and life insurance. DoD had
    deficiencies in employee records because DoD personnel offices did not have an
    effective system to review and correct civilian employee personnel documents
    and civilian payroll deductions on a timely basis. In addition, DoD needed
    improved management controls for DoD personnel offices and regional centers
    to retain personnel files and documents. Also, DoD needed to establish
    procedures for the accurate completion of personnel documents and the prompt
    transmission of personnel payroll data to DFAS. Until the deficiencies are
    corrected, documentation will not support amounts paid and withheld by DFAS,
    and DoD will not be assured that it acts upon the withholding elections of its
    civilian employees and accurately withholds proper amounts from civilian pay.




                                        5
Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. As a result of management comments, we
    eliminated our reference to the Director, Defense Civilian Personnel
    Management Service, in Recommendations A.1. through A.5. The Director,
    Defense Civilian Personnel Management Service, stated that the issues raised in
    this report concern matters under the purview of the Military Departments and
    Defense agencies.

    We made no recommendations to Defense agencies individually due to their
    minimal role in the overall sample. During the audit, the Defense Civilian
    Personnel Management Service indicated they would coordinate audit
    recommendations with the Defense agencies. Based on their written response,
    this would not occur and we removed them from the recommendation. During
    the FY 2000 audit, we will make recommendations to the Defense agencies, if
    appropriate.

    A. We recommend that the Assistant Secretary of the Army (Manpower
    and Reserve Affairs), the Assistant Secretary of the Navy (Manpower and
    Reserve Affairs), and the Assistant Secretary of the Air Force (Manpower,
    Reserve Affairs, Installations and Environment):

    1. Establish controls for DoD personnel offices and regional centers to
       retain personnel files and documents.

    Army Comments. The Assistant Secretary of the Army (Manpower and
    Reserve Affairs) (Army Personnel) nonconcurred and stated that guidelines and
    controls for the Army are already in place. The civilian personnel operations
    centers are tasked with maintaining employees’ official personnel files in
    accordance with the Guide to Personnel Recording, established by OPM. The
    guide addresses electronic as well as hardcopy official personnel files. The
    Army established additional controls and published them in the task lists,
    business process maps, and standard operating procedures. The Army cited a
    web site that identified controls that the Army had in place.

    Audit Response. The comments from Army Personnel were partially
    responsive. We acknowledge that the Army already had some controls for DoD
    personnel offices and regional centers to retain personnel files and documents.
    However, the results of the audit indicate that the guidelines already in place
    were not being implemented or were not adequate because the Army was not
    able to readily support the amount of payroll withholding reported to OPM for
    sampled civilian employees. We made three separate data calls from May
    through September 1999 requesting support for the Army civilian employee pay
    entitlements and for the amounts deducted for retirement, health benefits, life
    insurance, and thrift savings. After three data calls over a 5 month period, the
    Army was not able to provide the documents requested. The response of the
    Army is based on a fourth data call covering a 10 month period since the
    documentation was first requested. The Army needs to perform reviews of its
    support of pay entitlement and payroll elections to ensure that entitlements and
    elections are accurate. We reviewed the web site that the Army suggested, and


                                       6
concluded the business process maps do not address the recommendation
because the business process maps are only procedures instead of controls to
ensure the procedures are completed. We ask Army Personnel to reconsider its
position and to provide additional comments in response to the final report.

Navy Comments. The Assistant Secretary of the Navy (Manpower and
Reserve Affairs) concurred and stated that as the Navy implements Human
Resources Regionalization and Modernization, the Navy will ensure that its new
systems have adequate safeguards to ensure that official personnel records are
consistent with payroll withholding.

Audit Response. The comments from the Assistant Secretary of the Navy
(Manpower and Reserve Affairs) did not address the recommendation. The
results of the audit indicate that the guidelines already in place were not being
implemented or needed improvement because the Navy was not able to readily
support the amount of payroll withholding reported to OPM from its official
personnel records. The Navy needs to specify how the new systems will have
adequate safeguards to ensure that official personnel records are authorized and
should be able to substantiate payroll withholdings. We request further
comments from the Navy on this final report.

2. Establish procedures for the accurate completion of personnel
   documents and the prompt transmission of personnel payroll data to the
   Defense Finance and Accounting Service.

Army Comments. Army Personnel nonconcurred and stated that procedures
are already in place for processing personnel actions and transmitting data to
payroll. Some of the untimely transmissions cited in the draft report were
beyond the administrative control of the personnel offices. However, quality
control reviews are necessary to ensure that employees and managers have
accurately completed the forms necessary to effect personnel actions.
Procedures for completion of the particular personnel documents are provided in
the Federal Employees Health Benefits Handbook for Enrollees and Employing
Offices. Army Personnel cited three web sites that provide guidance on controls
and described training that occurred in the last year.

Audit Response. The comments from Army Personnel were not responsive. If
the Army had good processes in place, we would not have found the errors we
did. The Army Personnel identified three web sites regarding procedures for
completing personnel forms, but the web sites do not address the controls to
ensure that payroll withholding amounts deducted by DFAS are supported by
documents or authorizations maintained by personnel. For example, a critical
internal control provides for a separation of duties between payroll and
personnel to ensure two separate sources of support for payroll deductions. The
two sources are critical so that if one individual intentionally or unintentionally
inputs incorrect data, the second source will identify and correct the
discrepancy. Additionally, Army Personnel responded in Recommendation 4
that it has 300 System Change Requests in process. For the requests to be
effective, the Army needs to provide completion dates and testing schedules for
the changes rather than merely submitting the request. We request that Army
Personnel reconsider our recommendation to ensure that personnel data
accurately support DFAS payroll amounts on a timely basis.



                                     7
Navy Comments. The Assistant Secretary of the Navy (Manpower and
Reserve Affairs) concurred and stated that as the Navy implements Human
Resources Regionalization and Modernization, the Navy will ensure that its new
systems have adequate safeguards to ensure that employees are paid correctly.

Audit Response. The comments from the Assistant Secretary of the Navy
(Manpower and Reserve Affairs) do not address the recommendation. Navy
needs to specify the safeguards that it will include in any new systems to ensure
that employees are paid correctly, and how the new systems will include
procedures for the accurate completion of personnel documents and the prompt
transmission of personnel payroll data to DFAS. We request further comments
from the Navy on this final report.

3. Correct the errors in personnel files discussed in this report (see
   Appendix B for specific errors identified).

Army Comments. Army Personnel concurred and provided an enclosure to the
comments (not included in this report because of privacy considerations) with
the results of the Army review of the errors found in the personnel files. Army
Personnel stated that a number of errors resulted from an Army personnel
specialist not reviewing enough information in an employee’s records to verify
current withholdings. Army Personnel stated that in essence, the errors are not
the result of poor personnel record keeping or a lack of documentation but an
error in providing the necessary documentation to the auditors. Two of the
three timeliness errors cited are beyond the control of the personnel and payroll
communities. For example, one of the errors cited involving gross pay was the
result of the President not signing the Wage Grade pay table until
December 1998 with an effective date of October 11, 1998. Army Personnel
stated that as a result of the Army review of the 12 errors in the support for
amounts paid and withheld, only 4 files contained errors attributable to the
personnel community. Two of the four errors involve incorrect documentation,
but the payroll withholding is correct. One error is attributable to the inability
to provide records because of a missing file, so documentation and withholding
may or may not be correct. The fourth error involved an unacceptable delay in
processing an action, which affected the payroll withholding and the employee’s
pay.

Audit Response. The Army Personnel comments were partially responsive.
However, we requested the data that the Army used to make its determinations
in three data calls from May through September 1999. Including the draft
report, the Army had four opportunities to provide requested documentation to
support the files. Army Personnel acknowledged four incorrect files, including
one that they could not locate. We reviewed the documentation provided and
consider six items to still be errors and the remaining six to be untimely due to
requiring four data calls. Two errors we reported that the Army disputes
involve the failure to communicate information about health benefits and life
insurance in a timely manner. The Army should review the files that they
dispute because we consider the timing differences of as many as 103 days to be
errors and not an acceptable administrative delay. Payroll should not be
adjusted without proper and timely documentation. We request the Army
reconsider its position and provide further comments on this final report.




                                    8
Navy Comments. The Assistant Secretary of the Navy (Manpower and
Reserve Affairs) concurred and stated that it began the review of the six
Department of the Navy cases identified in the audit and will take appropriate
corrective action.

4. Establish a system to review and correct civilian employee personnel
   documents for consistency with payroll deductions.

Army Comments. Army Personnel nonconcurred and stated that all payroll
deductions must be based on the hardcopy or electronic data that flow from the
personnel offices to the Defense Civilian Payroll System (DCPS). Personnel
and payroll data are reconciled three times a year in February, June, and
October. Payroll sends a copy of the data that flowed through DCPS, and the
records are matched with the data elements in the Defense Civilian Personnel
Data System. The system does not contain payroll deductions such as taxes,
health insurance, thrift savings, garnishments, and life insurance. Payroll data,
in the form of a personnel/pay application data file, are sent to personnel to be
uploaded into the Regional Application.

Army Personnel also stated that DCPS has more than 300 system change
requests that are waiting to be implemented or processed, and 40 of the system
change requests deal specifically with the flow of personnel data. The personnel
and payroll staffs must use “workarounds” to get DCPS to accept actions.
Within the last year, the DCPS implemented some system change requests that
deal specifically with thrift savings and health actions.

Audit Response. The comments from Army Personnel were partially
responsive with the intent of the recommendation. The audit noted
inconsistency between payroll elections and payroll withholding based on the
elections, particularly in the areas of health insurance, life insurance, and thrift
savings. The intent of the recommendation was for the Army to perform
reviews to correct inconsistencies detected between payroll elections and
withholding. As described by the Army Personnel comments to
Recommendation 5, it is already performing reviews through the Civilian
Personnel Evaluation Agency and the Unmatched Disbursements Working
Group. If the Assistant Secretary of the Army directed the Civilian Personnel
Evaluation Agency to include reviews of health benefits, life insurance, the
Thrift Savings Plan, and FERS and CSRS retirement withholdings, the Army
response would be fully responsive to the intent of the recommendation.

Army Personnel should followup on the system change requests dealing with the
flow of personnel data by prioritizing the requests, monitoring the status of the
requests, and holding assigned staff accountable for ensuring prompt
accomplishment of the request. Better Army management of the system change
requests would enable Army personnel specialists to promptly transmit
personnel payroll data to DFAS. We request the Army provide additional
comments on the recommendation.

Navy Comments. The Assistant Secretary of the Navy (Manpower and
Reserve Affairs) concurred and stated that the accountability assessment
program will include a process for systematic review of the issue.




                                      9
Audit Response. The Navy needs to provide additional comments explaining
how this assessment program will work, and when it is scheduled for
implementation.

5. Develop performance measures for assessing the accuracy and support
   for gross pay and payroll withholding from personnel file records and
   accounting records.

Army Comments. Army Personnel concurred and stated that the systems in
place to assess the quality of data and to resolve discrepancies in accounting data
and payroll interface need focus. Army Personnel agreed that the employees
who process personnel and payroll actions need to ensure that the actions are
timely and correct. The employees may be from the personnel, resource
management, finance, or payroll community.

The Civilian Personnel Evaluation Agency of the Army performs internal audits
of personnel data and documentation, personnel record keeping, and personnel
data entry. The Civilian Personnel Evaluation Agency conducts data quality
checks by matching the data contained in Defense Civilian Personnel Data
System with the documents in the official personnel files to ensure that data are
accurate and complete. The Unmatched Disbursements Working Group was in
place with representatives from Civilian Personnel Financial Management,
Budget, and DFAS. The group outlined specific problem areas in the flow of
data from the initiation of an action all the way through to the Department of the
Treasury.

The Army was in the process of automating and moving benefit services from
the civilian personnel advisory centers to the regional Army Benefits Center-
Civilian located at Fort Riley, Kansas. New standard operating procedures,
business process maps, and task lists are being prepared to guide the processing
of health benefits, life insurance, and thrift savings transactions. The majority
of the transactions will be electronic. Employees will independently enroll or
change their enrollment using a telephone or computer, and the electronic data
will automatically flow to legacy and modern personnel systems and DCPS
through the payroll interface. The electronic transactions will expedite payroll
notification and reduce errors caused by data entry clerks. The transition of
workload from continental U.S. Civilian Personnel Advisory Centers to the
Army Benefits Center-Civilian will be completed this year. Because of the
number of actions occurring each day in the operations centers, the possibility
exists that the most current changes or corrections made to an employee’s
record are available in the Defense Civilian Personnel Data System and regional
applications long before a hard copy is filed. With the advent of the call center,
providing hard copies of documents to the auditors will not be cost-effective.

Audit Response. Comments from Army Personnel were partially responsive.
However, the Army needs to provide additional detail explaining how it plans to
establish performance metrics and when they will be implemented.




                                    10
Other Comments
    Defense Civilian Personnel Management Service Comments. The Director,
    Defense Civilian Personnel Management Service, stated that the issues raised in
    the draft report concern matters under the purview of the Military Departments
    and Defense agencies, and therefore the Director cannot respond directly to the
    report findings and recommendations.

    Audit Response. The comments from the Director, Defense Civilian Personnel
    Management Service, were responsive. We eliminated our reference to the
    Director, Defense Civilian Personnel Management Service, in the finding and
    recommendations.




                                       11
            B. Accuracy and Reliability of DoD
               Payroll Withholding Data
            DFAS could not support the amount of DoD payroll withholding
            reported to OPM, and it did not promptly resolve edit check
            discrepancies with OPM. DFAS could not support its OPM report
            because DFAS had a database that could be retroactively adjusted and
            lacked software to eliminate retroactive adjustments. DFAS did not
            promptly resolve edit check discrepancies because it did not have
            standard procedures to identify and communicate responsibility for
            resolving edit check discrepancies. As a result, OPM did not have
            complete assurance of the accuracy of the DoD payroll withholding data
            and the reliability, accuracy, and verifiability of the amounts transferred.



Electronic Files
     DFAS maintained and directly extracted data from a database known as its
     payroll history database. The payroll history database retains data for 26 pay
     periods after the end of the pay period, but the database is subject to retroactive
     and other changes. DFAS did not retain a permanent electronic file of the
     details provided to OPM beyond the 26 pay periods.

     Database Transfer and Footing. For this audit, DFAS extracted payroll data
     files from the payroll history database at Pensacola and sent it to us by an
     electronic file transfer procedure. We added the 24 payroll data files (8 payroll
     offices with more than 30,000 employees each for 3 pay periods) with more
     than $3.31 billion in total pay (approximately $1.1 billion per 2-week pay
     period) and more than 634,000 employees in each payroll period. We also
     added withholding amounts for life insurance, health insurance, CSRS, and
     FERS.

     Comparison of Database. We traced the employee withholding totals from the
     extracted payroll data files to the related amounts shown on the Retirement
     Insurance and Transfer System (RITS) submission. Table 1 reflects differences
     between the payroll data file totals and the amounts reported to OPM. The
     amounts withheld for life insurance withholdings, health insurance withholdings,
     CSRS withholdings, and FERS withholdings exceeded the amounts reported to
     OPM in the RITS submission data. The total difference, percent difference, and
     range of differences are shown in Table 1.




                                          12
         Table 1. Payroll Data Files Exceeded RITS Data Submissions

 Type of             Reported To    Total of               Percent           Percent Range
Withholding         OPM (millions) Differences            Difference         of Differences
Life                $ 31.1             $ 65,792              0.21            0.04 to 1.12

Health                72.8              102,612              0.14            0.01 to 0.39

CSRS                112.0               144,675              0.13            0.01 to 0.30

FERS                  15.0                8,270              0.06            0.00 to 0.31



         The differences occurred because DFAS maintained a database that could be
         retroactively adjusted. Because of the small size of the differences and the fact
         that DFAS used a database that allows retroactive changes for its payroll
         records, we do not consider the differences to be material. However, even
         small discrepancies reduce the reliability, accuracy, and verifiability of sensitive
         payroll data transmitted to OPM.

         DFAS can improve the capability to provide exact data supporting payroll
         withholding by correctly developing the capability to provide exact data support
         for the amounts reported to OPM excluding retroactive adjustments and other
         changes. We discussed alternative electronic methods with DFAS, and DFAS
         personnel are investigating the possibility of developing an improved extraction
         program for future required audits.



Reorganization, Responsibility, and Edit Checks
         OPM Edit Checks. To ensure the accuracy of the data transmitted by DFAS to
         OPM, OPM applied certain edit checks. The edit checks are part of the
         requirements set up for the RITS host-to-host file format and specifications as
         directed by OPM. Some examples of the edit checks include validity of payroll
         office number and pay period and withholding summations for life insurance,
         health benefits, CSRS, and FERS.

         Transfer of Edit Check Responsibility. DFAS Cleveland Center submitted
         three payroll data files with unresolved edit check discrepancies that OPM did
         not accept. DFAS Headquarters transferred to DFAS Cleveland Center the duty
         of sending payroll data to OPM for payroll file numbers 97380300 and
         97380500 on September 10, 1998, and October 16, 1998, respectively.
         However, DFAS Cleveland Center personnel were not informed that they had to
         identify and resolve edit check discrepancies for the payroll data files sent to
         OPM. In a meeting on September 2, 1999, resulting from our audit inquiries,
         OPM informed DFAS personnel of the procedures to use to resolve the edit
         check discrepancies.




                                              13
     Comparison of Deposit System Forms. We compared deposit system forms
     that OPM and DFAS provided to us for the three payroll periods for all payroll
     data files in excess of 30,000 employees (3 pay periods times 8 payroll files, or
     a total of 24 comparisons). OPM was able to initially provide only 21 of the 24
     deposit system forms that we requested. OPM was not able to provide 3 of the
     24 deposit system forms requested because the payroll data files had not passed
     edit checks to allow the data files into OPM and DFAS had not corrected the
     data files. DFAS was not aware that the payroll data files had not passed edit
     checks, but DFAS took action during the audit so that we could complete the
     audit procedures.

     After we informed DFAS that the reports failed edit checks, DFAS made
     corrections to the reports and the reports passed edit checks. The following
     table reflects the dates that the reports were originally submitted, dates when
     eventually accepted, and the amounts.

                        Table 2. Payroll File Edit Checks

 Payroll File               Pay Period        Date          Date
 Number                     Ended           Submitted      Accepted          Amount

 97380300                   11/21/98       11/30/98        7/16/99         $12,455,537

 97380500                   11/21/98       12/03/98        7/16/99          69,810,708

 97380500                   01/30/99       02/03/99        6/29/99          73,978,451



     DFAS was not aware that the reports had not passed edit checks for more than
     7 months. We consider the condition to be a DFAS management control
     weakness because DFAS was not aware that the payroll files failed edit checks
     and because of the significant amount of time it took to successfully file
     corrected payroll data files. Because data are maintained for approximately 26
     pay periods, those discrepancies might not have been corrected because the data
     would be destroyed, so timely corrections are critical. DFAS could prevent that
     type of management control weakness by implementing standard procedures for
     resolving edit check discrepancies.



Conclusion
  DFAS could not support the amounts that it reported to OPM, and it did not
  promptly resolve edit check discrepancies. DFAS could not support its OPM report
  because the DFAS database can be retroactively adjusted and the extraction
  software incorrectly considered the effects of retroactive adjustments. DFAS did
  not promptly resolve edit check discrepancies because it did not have standard
  procedures to identify and communicate the responsibility for resolving edit check




                                         14
  discrepancies. Until the deficiencies discussed in this finding are corrected, DFAS
  will not be able to support the amounts that it reports to OPM, and management
  controls will be less certain whenever responsibilities are transferred.

Recommendations, Management Comments, and Audit
  Response
     B. We recommend that the Director, Defense Finance and Accounting
     Service:

     1. Develop software capable of extracting exact details in electronic payroll
        data summarized and transmitted to the Office of Personnel
        Management for withholding payments.

     Management Comments. The Director for Finance, Defense Finance and
     Accounting Service, concurred and agreed to take action to define extraction
     program requirements and have the requirements in place for future audits.

     2. Develop and implement standard procedures to clearly identify and
        communicate responsibilities to personnel for transferred
        responsibilities.

     Management Comments. The Director for Finance, Defense Finance and
     Accounting Service, concurred and reported that its Cleveland Center had
     already taken action to communicate responsibilities for processing Retirement
     and Insurance Transfer System Files.




                                         15
Appendix A. Audit Process

Scope
    We reviewed the data and documentation supporting the $2 billion in payroll
    withholding that DFAS reported to OPM during each year for DoD civilian
    personnel. The total annual payroll for 800,000 DoD civilian employees is
    $37.6 billion. We selected for review the payroll files and supporting
    documentation for the payroll periods that ended November 21, 1998;
    January 30, 1999; and February 27, 1999, from the computer-processed data in
    the DFAS payroll history database. The DFAS payroll history database is
    generally reliable. We also reviewed DoD plans to automate and use electronic
    media to record DoD civilian personnel payroll withholding elections.

    DoD-Wide Corporate-Level Government Performance and Results Act
    (GPRA) Coverage. In response to the Government Performance and Results
    Act, the Secretary of Defense annually establishes DoD-wide corporate-level
    goals, subordinate performance goals, and performance measures. This report
    pertains to achievement of the following goal, subordinate performance goal,
    and performance measures.

    FY 2001 DoD Corporate Level Goal 2. Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-2)
    FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial and
    information management. (01-DoD-2.5)

           FY 2001 Performance Measure 2.5.2. Achieve unqualified opinions
           on financial statements. (01-DoD-2.5.2).

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           Financial Management Objective: Strengthen internal controls.
           Goal: Improve compliance with Federal Managers’ Financial Integrity
           Act. (FM-5.3)

    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides
    coverage of the Defense Financial Management high-risk area.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from April through November 1999 in accordance with auditing standards


                                      16
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and the Office of Personnel Management. Further
    details are available upon request.

Methodology
    We reviewed data and documentation supporting gross pay and payroll
    withholdings that DFAS reported to OPM. We also reviewed management
    controls over the reporting process. We met with the Defense Civilian
    Personnel Management Service to determine the status and goals of the Defense
    Civilian Personnel Data System. We determined why amounts were paid in a
    pay period that appear to exceed the salary cap per pay period. We
    electronically obtained the payroll data files from the payroll history database at
    Pensacola by a file transfer procedure from DFAS. We independently totaled
    the 24 payroll data files (the eight payroll offices with more than 30,000
    employees each for three pay periods). The data files represent about 634,000
    employees for each pay period. We compared the payroll data files with
    employee personnel forms for 279 randomly selected employees for gross pay,
    retirement, health insurance, and life insurance. We recalculated the headcount
    reflected on the Supplemental Semiannual Headcount Report. We obtained the
    Supplemental Semiannual Headcount Reports for the pay period that ended
    February 27, 1999, and compared those counts with the payroll data files from
    DFAS Pensacola for the same period. We recalculated total withholdings and
    employer contributions. For the three pay periods selected, we compared the
    total of the total column on the Forms 2812 with the actual amount transferred.

Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, requires DoD managers to implement a comprehensive
    system of management controls that provides reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of those
    controls.

    Scope of Review of Management Control Program. We reviewed the annual
    statement of assurance by DFAS for FY 1999. We reviewed the report to
    determine whether it disclosed the lack of software capable of extracting exact
    details in the electronic payroll data summarized and transmitted to OPM for
    withholding payments. We also reviewed the report to determine whether it
    disclosed the lack of standard procedures to ensure that responsibilities are
    clearly identified and communicated to responsible personnel during
    reorganizations. We identified a lack of management controls during our audit
    testing that compared DFAS withholding amounts to personnel records, since
    the records did not support the amounts withheld.


                                        17
    Adequacy of Management Controls. We identified material management
    control weaknesses, as defined by DoD Instruction 5010.40, “Management
    Control (MC) Program Procedures,” August 28, 1996. The Military
    Department civilian personnel offices needed an improved process to identify
    withholding errors for civilian payroll deductions. Also, DFAS did not have a
    standard procedure to clearly identify and communicate responsibilities to
    personnel during reorganizations. In addition, DFAS did not have software
    capable of extracting exact details in the electronic payroll data summarized
    and transmitted to OPM for withholding payments. Recommendations A.1.
    through A.5., if implemented, will improve Military Department civilian
    personnel offices documentation support for amounts that DFAS paid and
    withheld. Recommendations B.1. and B.2. in this report, if implemented, will
    improve the timeliness of reporting payroll data from DFAS to OPM and the
    accuracy of database support for the amounts that DFAS summarizes to report
    to OPM.

    Adequacy of Management’s Self-Evaluation. Management’s self-evaluation
    did not identify the material weaknesses because management did not identify
    the areas as assessable units. In addition, DFAS management’s letter of
    assurance did not identify the material management control weaknesses because
    the prior review of DoD payroll withholding data, performed by a contractor,
    omitted some of the agreed-upon procedures and therefore did not disclose the
    weaknesses.

Summary of Prior Coverage
    The Inspector General, DoD, and the Air Force Audit Agency have conducted
    multiple reviews related to civilian payroll information, controls over the
    payroll process, and payroll expenses. Unrestricted Inspector General, DoD,
    reports can be accessed on the Internet at http://www.dodig.osd.mil.
    Unrestricted Air Force Audit Agency reports can be accessed on the Internet at
    http://www.afaa.hq.af.mil.




                                      18
Appendix B. Summary of Errors
                                                                                   Annual
                   Net Amount                                                     Withholding
       Agency     Per Pay Period                         Error                       Error

                                     Retirement underwithheld, TSP
                                     underwithheld, health overwithheld,
1      Army               $21.05     gross pay underpaid                              $547.30*
2      Army                 0.17     FEGLI overwithheld                                   4.42
3      Army                11.31     Health overwithheld                                294.06
4      Army               104.33     TSP overwithheld                                 2,712.58
                                     Health underwithheld, TSP
5      Army                89.65     overwithheld                                     2,330.90
6      Army               112.24     TSP overwithheld                                 2,918.24
7      Army                55.27     Health overwithheld                              1,437.02
8      Army                72.62     TSP overwithheld                                 1,888.12
                                                                                                *
9      Army                          Gross pay, no documentation
                                     Gross pay, Retirement, FEGLI, Health,
                                                                                                *
10     Army                          TSP, missing file
11     Army                 6.01     Health overwithheld                                156.26
12     Army                 8.42     FEGLI overwithheld                                 218.92
13     Army                79.26     Health, FEGLI overwithheld                       2,060.76
                                     Gross pay overpaid, FEGLI
14     Navy                 0.32     overwithheld                                        -8.32*
15     Navy                 0.22     FEGLI overwithheld                                    5.72
16     Navy                 4.13     FEGLI overwithheld                                 107.38
17     Navy                62.32     Health overwithheld                              1,620.32
18     Navy               250.46     Health, TSP overwithheld                         6,511.96
19     Navy                74.32     TSP overwithheld                                 1,932.32
20     DECA                -0.66     FEGLI underwithheld                                -17.16
21     DECA                 0.33     FEGLI overwithheld                                    8.58
                                                                                                *
22     DLA                           Gross pay, no documentation
23     DLA                 -4.50     FEGLI underwithheld                               -117.00
24     DIS                -10.02     Health underwithheld                              -260.52

                        $952.11      Total Overwithheld                            $24,754.86
                        -$15.50      Total Underwithheld                             -$403.00

DECA               Defense Commissary Agency
DLA                Defense Logistics Agency
DIS                Defense Investigative Service (now Defense Security Service)
TSP                Thrift Savings Plan




*
    Cannot determine correct gross pay, not documented in personnel file

                                                    19
 Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness


Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Manpower and Reserve Affairs)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Manpower, Reserve Affairs, Installations and
  Environment)
Auditor General, Department of the Air Force




                                         20
Other Defense Organizations
Director, Civilian Personnel Management Service
Director, Defense Commissary Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman
  and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                         21
22
Department of the Army Comments




                    23
24
25
26
Department of the Navy Comment




                 27
28
Defense Finance and Accounting Service
Comments




                   29
Defense Finance and Accounting Service
Comments




                30
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     F. Jay Lane
     Salvatore D. Guli
     David F. Vincent
     Thomas J. Winter
     Joseph A. Powell
     Jonathan M. Rabben
     Alberto T. Rodriguez
     Lee Clinard
     Leon Bryant
     Susanne B. Allen
